     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General



                                                                          Office of Audit Services
                                                                          Jacob Javit s Federal Building
                                                                          26 Federal Plaza, Room 3900
                                                                          New York, NY 10278
January 14, 2010


Report Number: A-02-08-02003

Lorenzo Gonzalez Feliciano, M.D.
Secretary
Puerto Rico Department of Health
P.O. Box 70184
San Juan, Puerto Rico 00936-8184

Dear Dr. Gonzalez Feliciano:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
General (OIG), final report entitled "Review of the Puerto Rico AIDS Drug Assistance
Program's Controls for Accounting for and Safeguarding Drugs." We will forward a copy of
this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act,S U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact James C. Cox, Audit Manager, at (518) 437-9390, extension 222 or through email at
James. Cox@oig.hhs. gov. Please refer to report number A-02-08-02003 in all correspondence.

                                             Sincerely,



                                             Ijames P. Edertl
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 - Lorenzo Gonzalez Feliciano, M.D.


Direct Reply to HHS Action Official:

Team Leader, Compliance Team, OF AM/DFI
Health Resources and Services Administration
Parklawn Building, Room llA-55
5600 Fishers Lane
Rockville, Maryland 20857
Department of Health and Human Services
            OFFICE OF 

       INSPECTOR GENERAL 





REVIEW OF THE PUERTO RICO 

  AIDS DRUG ASSISTANCE 

 PROGRAM'S CONTROLS FOR 

   ACCOUNTING FOR AND 

   SAFEGUARDING DRUGS 





                       Daniel R. Levinson 

                        Inspector General 


                         January 2010 

                         A-02-08-02003 

                         Office ofInspector General
                                          http:// oig.hhs.gov



The mission ofthe Office ofInspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity ofthe Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs andlor its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments ofHHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections

The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office ofInvestigations

The Office ofInvestigations (01) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, 01 utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of 01
often lead to criminal convictions, administrative sanctions, andlor civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG's internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry conceming the anti-kickback statute and other OIG enforcement
authorities.
                            Notices 



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig .hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                              EXECUTIVE SUMMARY 


BACKGROUND

The Ryan White Comprehensive AIDS Resources Emergency (CARE) Act of 1990, Pub. L.
No. 101-381, funds health care and support services for people who have HIV/AIDS and who
have no health insurance or are underinsured. As the Federal government's largest source of
funding specifically for people with HIVIAIDS, the CARE Act assists more than 500,000
individuals each year. Within the U. S. Department of Health and Human Services, the Health
Resources and Services Administration (HRSA) administers the CARE Act. In the
Commonwealth of Puerto Rico, the Puerto Rico Department of Health (Health Department)
administers CARE Act funding.

Title II of the CARE Act, sections 26ll-2631 of the Public Health Service Act, provides grants
to States and territories to fund the purchase of medications through its AIDS Drug Assistance
Program (ADAP) and other health care and support services.

Commonwealth laws require that prescription drugs be dispensed by a pharmacist or a pharmacy
technician under the direct supervision of a pharmacist. In addition, Federal regulations require
grantees to account for grant funds in accordance with Federal and State laws and procedures to
establish that such funds have not been used in violation of the restrictions and prohibitions of
applicable statutes. Federal regulations also require that grantees maintain effective controls and
accountability for adequately safeguarding and assuring that grant funds are used solely for
authorized purposes. Further, Health Department policies and procedures require that drug
inventory controls be enforced to account for and safeguard grant funds.

During the period April 1, 2004, through March 31, 2007 (grant years 2004-2006), the Health
Department claimed ADAP drug expenditures totaling $75,332,082.

OBJECTIVE

Our objective was to determine whether the Health Department complied with Federal and
Commonwealth requirements for dispensing, accounting for, and safeguarding ADAP drugs.

SUMMARY OF FINDINGS

Contrary to Federal and Commonwealth requirements, the Health Department did not ensure
that:

       • 	 ADAP drugs were dispensed by a licensed pharmacist or by a pharmacy technician
           under the direct supervision of a licensed pharmacist;

       • 	 the Pharmacy Distribution Center and three treatment clinics maintained an adequate
           ADAP drug inventory system; and

       • 	 expired ADAP drugs were properly disposed.
In addition, contrary to its policies, the Health Department did not always take advantage of the
opportunity to return expired drugs to their manufacturer for credit.

These issues occurred because the Health Department did not have adequate controls to dispense,
account for, and safeguard its ADAP drugs. As a result, HIV/ AIDS patients may have been
exposed to health risks associated with the dispensing of drugs by unlicensed personnel. In
addition, the Health Department could not ensure that it did not claim Federal reimbursement for
ADAP drugs that were lost, stolen, or expired. There is also a potential risk that ADAP-eligible
patients may have been dispensed expired drugs.

RECOMMENDATIONS

We recommend that the Health Department:

       • 	 ensure that ADAP drugs are dispensed by a licensed pharmacist or by a pharmacy
           technician under the direct supervision of a licensed pharmacist,

       • 	 implement procedures to adequately account for ADAP drug inventories, and

       • 	 implement procedures to properly dispose of expired ADAP drugs, and, if possible,
           request credit or exchange from manufacturers for eligible expired drugs.

HEALTH DEPARTMENT COMMENTS

In written comments on our draft report, the Health Department generally concurred with our
findings and it has taken, or plans to take, to address our recommendations. The Health
Department's comments appear in their entirety as the appendix.




                                                11
                                                    TABLE OF CONTENTS 




INTRODUCTION................................................................................................................ 1 


       BACKGROUND ....................................... ... ..................... ... ...................... ... ............... 1 

          AIDS Drug Assistance Program .......................................................................... l 


       OBJECTIVE, SCOPE, AND METHODOLOGY ........................................................ 1 

           Objective ................................................................... ... ..................... ... ................ 1 

           Scope ....................................................................................................................2 

               M~~~ ........................................................................................................2            


FINDINGS AND RECOMMENDATIONS ..................................................................... .3 


       UNSUPERVISED DRUG DISPENSING .................................................................... 3 


       INADEQUATE DRUG INVENTORIES ............... .. .............. ........ .. ............................ 4 

           Perpetual and Physical Inventories ..................................................................... .4 

           Drug Requisition Forms .................................................................... ... ............... .4 


       EXPIRED DRUGS NOT ALWAYS PROPERLY DISPOSED .................................. 5 


       RECOMMENDATIONS ..............................................................................................6 


       HEALTH DEPARTMENT COMMENTS ...................................................................6 


APPENDIX 


       HEALTH DEPARTMENT COMMENTS 





                                                                      111
                                       INTRODUCTION 

BACKGROUND

AIDS Drug Assistance Program

The Ryan White Comprehensive AIDS Resources Emergency (CARE) Act of 1990, Pub. L. No.
101-381, funds health care and support services for people who have HIV/AIDS and who have
no health insurance or are underinsured. As the Federal Government's largest source offunding
specifically for people with HIVIAIDS, the CARE Act assists more than 500,000 individuals
each year. Title II of the CARE Act, sections 2611-2631 of the Public Health Service Act,
provides grants to States and territories to fund the purchase of medications through AIDS Drug
Assistance Programs (ADAP) and other health care and support services.

Within the U.S. Department of Health and Human Services, the Health Resources and Services
Administration (HRSA) administers the CARE Act. In the Commonwealth of Puerto Rico, the
Puerto Rico Department of Health (Health Department) oversees CARE Act funding. The
Health Department's Pharmacy Distribution Center stores ADAP drugs for dispensing by the
Health Department's eight treatment clinics throughout the Commonwealth. During the period
April 1, 2004, through March 31,2007 (grant years 2004-2006), the Health Department claimed
ADAP drug expenditures totaling $75,332,082.

Federal and State Reqnirements

Commonwealth law (The Pharmacy Act, Puerto Rico P.L. 247 §§ 2.02-2.04 (enacted Sept. 3,
2004)) requires that prescription drugs be dispensed by a pharmacist or a pharmacy technician
under the direct supervision of a pharmacist.

Pursuant to 45 CFR § 74.2l(b)(3), grantees must maintain effective controls and accountability
to adequately safeguard and assure that CARE Act funds are used solely for authorized purposes.

Health Department policies require that drug inventory controls be enforced to account for and
safeguard grant funds and to ensure that expired drugs be returned to the manufacturers for credit
or exchange or be appropriately disposed of. According to officials from HRSA's Office of
Pharmacy Affairs, it would be a sound management practice for the Health Department to
coordinate credit or exchange of expired drugs with manufacturers.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Health Department complied with Federal and
Commonwealth requirements for dispensing, accounting for, and safeguarding ADAP drugs.




                                                1

Scope

Our audit period covered grant years 2004-2006. We did not review the overall internal control
structure of the Health Department. Rather, we limited our internal control review to the
objective of our audit.

We conducted fieldwork at the Health Department's Phannacy Distribution Center in San Juan,
Puerto Rico, and at three treatment clinics, in Arecibo, Caguas, and San Juan, Puerto Rico.

Methodology

To accomplish our objective, we:

           • 	 reviewed applicable Federal and Commonwealth laws and regulations, as well as the
               Health Department's Policies and Procedures Manual for the Distribution of Drugs;

           • 	 interviewed Health Department officials to gain an understanding of Health
               Department policies and procedures for accounting for and safeguarding ADAP
               drugs;

           • 	 reviewed the ADAP drug inventory process and drug safeguards at the Pharmacy
               Distribution Center, and at three treatment clinics throughout Puerto Rico;

           • 	 reviewed licensing credentials for pharmacy staff at the three treatment clinics;

           • 	 judgmentally selected 60 of 306 ADAP drug requisition forms from the three clinics
               visited to test for compliance with the provisions of the Manual;

           • 	 reviewed Health Department procedures for disposing of expired ADAP drugs;

           • 	 reviewed disposal records for all AD AP drugs discarded during grant years 2004 and
               2005 by the Pharmacy Distribution Center; 1

           • 	 evaluated Health Department's inventory records to identify the cost of expired
               ADAP drugs that could have been eligible for credit or replacement; and

           • 	 discussed with HRSA officials the potential effect of dispensing expired ADAP
               drugs;

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

1   There were no disposal records available for the calendar year 2006.


                                                            2

                              FINDINGS AND RECOMMENDATIONS 


Contrary to Federal and Commonwealth requirements, the Health Department did not ensure
that:

        • 	 ADAP drugs were dispensed by a licensed pharmacist or by a pharmacy technician
            under the direct supervision of a licensed pharmacist;

        • 	 the Pharmacy Distribution Center and three treatment clinics maintained an adequate
            ADAP drug inventory system; and

        • 	 expired ADAP drugs were properly disposed.

In addition, contrary to its policies, the Health Department did not always take advantage of the
opportunity to return expired drugs to their manufacturer for credit.

These issues occurred because the Health Department did not have adequate controls to dispense,
account for, and safeguard its ADAP drugs. As a result, HIV/ AIDS patients may have been
exposed to health risks associated with the dispensing of drugs by unlicensed personnel. There is
also a potential risk that ADAP-eligible patients may have been dispensed expired drugs.

UNSUPERVISED DRUG DISPENSING

Pursuant to section 2.02 of the Puerto Rico Pharmacy Law (Law Number 247, approved
September 3, 2004), a pharmacist shall dispense drugs and devices by prescription, a function
that includes completing pharmaceutical records, preparing drugs, verifying and delivering
prescriptions, offering advice to patients, and supervising technical and administrative functions
delegated to pharmacy technicians. Pursuant to section 2.03 of the Puerto Rico Pharmacy Law, a
pharmacy technician "shall always be under supervision of an authorized pharmacist." In
addition, pursuant to section 2.04 of the Puerto Rico Pharmacy Law, a pharmacy technician shall
not verify prescriptions against medications to identify potential drug-related problems, advise
patients on prescribed drugs, or perform any other pharmacist functions. 2

Contrary to these Commonwealth requirements, pharmacy technicians not under the supervision
of a pharmacist dispensed prescriptions for ADAP drugs at the three Health Department
treatment clinics we reviewed. One clinic had no pharmacist during our 3-year audit period. At
the other two clinics, pharmacy technicians dispensed ADAP drugs when the on-staff pharmacist
was absent (e.g. out sick or on vacation). In these two clinics, we observed pharmacy
technicians dispensing drugs and providing guidance to patents without the supervision of a
pharmacist, thereby exposing these patients to unnecessary risks. As a result, HIV/ AIDS patients



2Section 2.04 of the Puerto Rico Pharmacy Law states that a pharmacy technician "may perform, under direct
supervision of the pharmacist, technical or administrative functions delegated to himlher by the pharmacist
regarding the dispensing of prescription drugs and devices, and which do not require the professional judgment of
the phannacist for their perfonnance."


                                                         3

may have been exposed to health risks associated with the dispensing of drugs by unlicensed
personnel.

This lack of control occurred because the Health Department did not have adequate procedures
to ensure that pharmacy technicians dispense drugs only when under the supervision of a
pharmacist.

INADEQUATE DRUG INVENTORIES

Perpetual and Physical Inventories

As a cost-saving measure, the Health Department purchased discounted ADAP drugs through
                                        3
HRSA's 340B Drug Pricing Program. Pursuant to section 340B of the Public Health Service
Act, program enrollees must have mechanisms in place to prevent the diversion of drugs to
individuals not enrolled as qualified ADAP patients. In addition, sections X.C.8-9 of the Health
Department's Policies and Procedures Manual for the Distribution of Drugs requires that
physical inventories for drugs be performed using an inventory system with monthly
verifications to ensure that physical inventory reports are reconciled with perpetual inventory
        4
records

Contrary to these requirements, the Health Department did not have an effective inventory
system in place to account for ADAP drugs. Specifically, the Health Department did not have an
up-to-date perpetual inventory system at the center because postings to the inventory were
delayed up to two years. While physical inventories of ADAP drugs at the Pharmacy
Distribution Center were performed twice during our audit period (June 2004 and June 2006);
the two physical inventories were inadequate because they could not be reconciled to a perpetual
inventory. No inventories were performed at the three reviewed treatment clinics. As a result,
the Health Department could not ensure that it did not claim Federal reimbursement for ADAP
drugs that were lost, stolen, or expired.

Health Department officials stated that inventory records were not timely because of a lack of
personnel and the slow submission of supporting documentation by the Pharmacy Distribution
Center to the Health Department's finance division, which is responsible for manually
maintaining perpetual inventory records. In addition, the use of a non-computerized perpetual
inventory system may have also contributed to these delays.

Drug Requisition Forms

The Health Department requires its treatment clinics to complete drug requisition forms when
requesting drugs from the Pharmacy Distribution Center. Pursuant to section X.D.l of its


3 The34GB Drug Pricing Program limits the cost of covered outpatient drugs to certain Federal grantees, including
State-operated ADAPs receiving financial support under the CARE Act.

4A physical inventory records a count of inventory taken at any given time. A perpetual inventory is a system that
requires a continuous record of all receipts and withdrawals of each item of inventory.



                                                         4

Policies and Procedures Manual for the Distribution of Drugs, requisition fonns should include
the date, name of the requesting clinic, a description of medication requested, dosage, amount of
drugs in stock (with expiration dates), quantity requested, the signature of the requesting
phannacist and the signature of the distribution center official authorized to approve the request.
The manual also states that, after the request is received at the Phannacy Distribution Center, the
phannacy technician and supervising phannacist who dispensed the order to the requesting clinic
are required to sign the fonn (sections X.D.9 through X.D.ll) as well as the driver who
transported the drugs to the requesting clinic (section X.D.12). Upon receipt of the drugs, the
requesting pharmacist is required to sign the fonn and return a copy of the fonn to the Phannacy
Distribution Center to confirm that the delivery was made (section X.D.14).

Our review of 60 judgmentally selected drug requisition fonns from three Health Department
treatment clinics (20 from each clinic) disclosed non-compliance with basic inventory controls,
including missing signatures for approving, dispensing, delivering, and receiving ADAP drugs.
All 60 forms reviewed did not contain one or more required signatures, including 35 that did not
have the signature of the requesting phannacist. As a result, there is no assurance that the
corresponding drugs were actually received by the requesting clinic.

EXPIRED DRUGS NOT ALWAYS PROPERLY DISPOSED

Drug manufacturers allow customers to return expired drugs for credit or exchange if the drugs
are returned within one year from their expiration dates. In Puerto Rico, the Phannacy
Distribution Center is responsible for coordinating the return (or, in certain cases, the disposal) of
expired drugs from Health Department treatment clinics. Officials from HRSA's Office of
Phannacy Affairs stated that, as a sound management practice and as a enrollee in the 340B
Drug Pricing Program, the Health Department should return eligible expired drugs for exchange
or credit. Moreover, in its ADAP grant applications, the Health Department assured HRSA that
all expired drugs would be removed from stock and traded for credit or "decommissioned"
accordingly. 5

The Health Department also had policies requiring its phannacies to implement a process for
decommissioning expired drugs not exchanged or credited. Further, Commonwealth law (The
Puerto Rico Government Accounting Act, P.L. No. 230 Article 2(e) (enacted July 23,1974))
requires government entities to implement controls that serve as effective tools in the
administration of programs.

Contrary to Federal and Commonwealth requirements, the Health Department lacked policies to
ensure that its treatment clinics timely shipped all expired ADAP drugs to the Phannacy
Distribution Center for return to their manufacturers. 6 As a result, some ADAP drugs remained
at treatment clinics well beyond their expiration dates. Other expired ADAP drugs, which were


'CARE Ac~ Title II (part B) Grant Application, section IV(A)(IO), ADAP Quality Management Procedures (grant
years 2004, 2005, and 2006).

'Specifically, section XII of the Health Department's policies and procedures manual states that expired drugs
should be divided into "decommission boxes" and kept in a quarantine area until they are disposed of by a
contracted company that also disposes of expired vaccines and biological products.


                                                         5

shipped to the Phannacy Distribution Center, were returned for credit or exchange or were
disposed of because they were ineligible for credit or exchange. However, the Phannacy
Distribution Center 7 also disposed of $34,043 in ADAP drugs (169 units) without attempting to
receive credit from the drug manufacturer. In addition, at one of the treatment centers we
visited, we found $21,932 in ADAP drugs (118 units) that were 6 to 8 years past their expiration
dates, stored in a warehouse, awaiting disposal. Health Department officials indicated that these
drugs were not returned to the Phannacy Distribution Center while still eligible for credit or
exchange from their manufacturer.

In addition, during our fieldwork, we observed two expired ADAP drugs (10 units), valued at
$3,865, on a dispensing shelve at one treatment clinic. The presence of these expired drugs
increased the risk that they would be distributed to clients. According to HRSA officials,
dispensing expired drugs to HIV/ AIDS patients may also cause drug resistance and make
patients' overall treatment less effective or life-threatening.

RECOMMENDATIONS

We recommend that the Health Department:

        • 	 ensure that ADAP drugs are dispensed by a licensed pharmacist or by a pharmacy
            technician under the direct supervision of a licensed pharmacist,

        • 	 implement procedures to adequately account for ADAP drug inventories, and

        • 	 implement procedures to properly dispose of expired ADAP drugs, and, if possible,
            request credit or exchange from manufacturers for eligible expired drugs.

HEALTH DEPARTMENT COMMENTS

In written comments on our draft report, the Health Department generally concurred with our
findings and described steps it has taken, or plans to take, to address our recommendations. The
Health Department's comments appear in their entirety as the appendix.




7 TheHealth Department provided documentation that it returned more than $20,000 in ADAP drugs for credit or
exchange. However, the documentation was incomplete and unverifiable.


                                                       6

                                                                                             Page 1 of 4


       APPENDIX: HEALTH DEPARTMENT COMMENTS 





                                                                     Commonwealth of Puerto Rico
                                                              Puerto Rico Department of Health

October 13, 2009



James P. Edert 

Regional Inspector General 

For Audit Services
Office of Inspector General 

Region II 

Jacob Javits Federal Building 

26 Federal Plaza - Room 3900 

New York, NY 10278 



Dear Mr. Edert:

I am submitting for your consideration our response to the U.S. Department of 

Health and Human Services, Office of Inspector General (OIG) draft report 

entitled "Review of the Puerto Rico AIDS Drug Assistance Program's Controls for 

Accounting for and Safeguarding Drugs" (Report Number: A-02-08-02003). 


I appreciate your kindness to grant us the requested additional time to answer
and look forward to a continued collaboration in the future to ensure optimal 

services for persons Jiving with HIV/AIDS in Puerto Rico. 


Thanks for your attention to this matter.


 Lor~;elt:o, ~~
 Secretary 

 Puerto Rico Department of Health 





PO BOX 70184 SAN JUAN, PR 00936-8184. P 787. 274-7676· F 787.274.6547. www.salud .gov.pr




                                            1

                                                                                Page 2 of 4




Finding # 1: Unsuperv ised D ru g Dispensin g.         The PR H ea lth
Department did not e n sure th a t ADAP dru gs w ere dispense d by a
licensed pharmacist o r by a ph arm acy t ech nici a n u nde r the direct
supervisi on of a license d pharmacist.

Since early FY 2008, the PR-ADAP identified and started business
negotiations with the owners of community and privately own pharmacies
that we re willing to offer drug dispensation services to ADAP eligible
parti cipants who received clinical services at the Arecibo and Caguas CPTETs
(Spanish 3cronym for Centro de Prevenci6n y Tratamiento de Enfermedades
Tran smisibles). and the satellite clinic in Humacao, which is under the
supervision of the Medical Director from the Caguas CPTET.As a result, the
following pharmacies were contracted: Farmacia Arleen in Caguas ( contract
was effecti ve on May 8, 2008), Farmacia Central in Humacao (contract was
effective on May 23, 2008), Farmacia Garcia in Arecibo (contract was
effective on July 14, 2008).

Contracts wi th these pharmacies were renewed for FY 2009. Pharmacy
services con tinue d to be provided at CLETS, Ponce and Mayaguez CPTETs,
with PR Hea lth Department licensed pharmacists and pharmacy technicians
und er th e direct supervision of a pharmacist. All contracted pharmacies
comply with the Com monwealth of Puerto Rico and Federal laws to operate
and dispense dru gs by qualified licensed personnel. With these actions, the
PR- ADAP eliminated patie nts' health risks associated to dispensing drugs by
un licensed personnel.

To address the abse nce of a licensed pharmacist due to vacations or
sickn ess leave in any of the three CPTETs that currently have pharmacies,
the PR Health Department has other licensed pharmacists available to cover
their serv' ces. Pharmacy personnel vacation plans are coord inated with the
head of to e Pharmacy Distribution Center in order to prepare contingency
arran gements to avoid unsupervised drug dispensing at any of these
pharmacies .



Find ing #   2: Inadeguate Drug Invent ories.      The PR H ealt h
Department did not ensure th a t t h e Pharmacy Distributio n Cente r
and thr e e treatment clinics ma int ained an adequate AD AP d rug
invento ry system.

Perp e tu al and Physical Invent ories

For man y years, the Pharmacy Distribution Center has had in place a manual
drug inventory system to manage medications purchased with Federal and




                                      2

                                                                                   Page 3 of 4




State fu n i s. During FY 2009, Ryan White Part B Program allocated money
to pu rcha3e a computerize d inventory program that will be installed at the
Pharmacy Distribution Center to deal more effectively and efficiently with the
ADAP drcg inventory adminis tration . This computerized system will also
allow for )[cu rate and up to date information in multi-locations (interfacing
with inv,," tory data information from the CPTETs) and facilitate drugs' return
and req Ul'sts for credits to drug companies and other vendors. Currently,
the Off ce of Information and Technological Advances (OlAT) is reviewing the
system requirements. After this reviewing process is done, OlAT will submit
a report LO PR ADAP and a bidding process (Request for Proposal) will
comm E n c~ with th e PR- Health Department Purchasing Office. At the present
time, PR- \ DAP has in place a monitoring guidance that addresses the drug
inventcry managing process and of the credits offered by the manu factu rers
when ex p red drugs are returned.

The Offi c, of Finance at the Department of Health has Implemented a
workln ] 1,lan to u pdate the perpetual inventory at the Drug Distribution
Center a l d Pharmacy .        The Secretariat of Administration will continue
perforrli n J the ph ysical inventory and ensure the reconciliation of both .

Dru g Re e' uisitions Forms

Since 11a' , 2009, Island Wi de, a local transportation company, is offering
drug deliJ ery serv ices to all HIV/AlDS public and private clinics that
compr ise the AD AP network, including the PRDH CPTETs. This company
main La n, a log where the pharmacies personnel sign drug shipments that
are rL' e " ed and also make sure that requisition forms are signed by the
requ l!s·.ir , pha rm acists, This log and requisition forms are an assurance
that dr J9 reques te d were actually received by the requesting pharmacy and
its autho ized pers onnel.      This contract with Island Wide confirms our
com mil m ent to foster efficiency and comply with internal and external
policie£ , r rocedures and regulations concerning this subject matter.
Fin ding # 3: Expired Drugs not always properly disposed. The PR
Heal t h Department did not ensure that expired ADAP drugs were
p rop erly dispose d.

SinO al uary, 2007, Pharmacy Distribution Center (PDC) personnel was
stre n It h ~1 ed by re cruiting a pharmacist and a pharmacy technician to,
am Ol1] 01 her tasks , request credit or exchange from drug companies for
eligi ble o pired drug s and process the disposal of medications without credit.
Sinc~ t hen , the PDC has kept records of such activity.      Nonetheless, it is
important to point out that the PDC has had in place before 2007,
proc J Jr s rega r ding the properly disposal of expired drugs. Specifically,




                                        3

                                                                                 Page 4 of 4




there has been an established pol icy to transport expired drugs from the HIV
cl inics to the Pharmacy Distribution Center. Actually, the PDC is in the
proC(!SS uf obtaining an identification number as a Controlled Waste
G cn~ra t (' for th" disposal of expired medications, as required by the
Environm" ntal Quality Board (Junta de Cali dad Ambiental), that is renewable
ever' 5 yea rs, The PD C is currently working in the calculation of credi ts
obtained per sup plier per year. The PDC also sends a monthly reminder to
the abov~ mentioned CPTETs to return medications that will expire the
following month .

To ensur, that cr edits offered by drug manufactu rers are requested, the PR
ADAf ,ne uded a clause in the contracts signed with the aforementioned
com, len {pharmacies that serve Arecibo and Caguas CPTETs' patients, to
retur~ mC.dicatiocs w ith less than 60 days left in the expiration date . This
requiremlnt wa s also added to the pharmacy services agreement (PSA)
formal'zed with CLETS.
The PR ADAP is com mitted to continue strengthening and improving
mon itoring procedures in order to assure the provision of better quality
services to our participa nts and safeguarding their health.




                                       4

